DOE/IG-0484




               AUDIT             MANAGEMENT OF THE NUCLEAR
              REPORT                WEAPONS PRODUCTION
                                      INFRASTRUCTURE




                                       SEPTEMBER 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                       September 22, 2000



MEMORANDUM FOR THE SECRETARY


FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Audit Report on "Management of the Nuclear
                       Weapons Production Infrastructure"


BACKGROUND

Since the cessation of underground testing of nuclear weapons in the early 1990’s, the
Department of Energy's responsibility to ensure the safety, security, and reliability of the
nuclear weapons stockpile has been met through its Stockpile Stewardship Program. This
program includes a wide range of activities: stockpile surveillance, stockpile maintenance,
non-nuclear experimentation and testing, and computational simulation.

Successful implementation of the Stockpile Stewardship Program is a key underpinning of the
Secretary's annual certification to the President that the nuclear stockpile is safe and reliable.

In 1998, the Department concluded that maintenance problems existed within the nuclear
weapons complex. Postponement of repairs to aging and deteriorating weapons complex
facilities had resulted in a $422 million maintenance and repair backlog at the production
facilities. At that time, the Department planned to initiate actions to resolve these maintenance
issues. The objective of the audit was to determine whether the Department had maintained the
nuclear weapons production infrastructure to meet current and future goals of the Stockpile
Stewardship Plan.



RESULTS OF AUDIT

Because the nuclear weapons production infrastructure has not been adequately maintained,
current and future goals of the Stockpile Stewardship Program are at risk. Although the data
available to us suggests that current military requirements were being met, the deterioration of
the infrastructure has resulted in delays in weapons modification, remanufacture and
dismantlement, and in the process of surveillance testing of nuclear weapons components.

The audit disclosed that the Department had not fully implemented a process to link workload,
production capacity, and budget information with facility requirements. As a result, some
Stockpile Stewardship Plan milestones and goals have slipped or have not been attained,
restoration costs have increased, and future nuclear weapons production work, as required by
                                                2



Presidential Decision Directives, is at risk. Knowledgeable officials within the National
Nuclear Security Administration and the Department of Defense have estimated that the
Department must invest $5 billion to $8 billion more than current budgeted amounts over the
next 10 years to offset the effects of delayed or neglected infrastructure activities.

We recommended that the Administrator for the National Nuclear Security Administration
develop an overall infrastructure restoration plan based on individual site plans and current and
planned stockpile workload requirements. In our judgment, the infrastructure restoration plan,
among several benefits, would provide a documented rationale for future weapons complex
maintenance funding requests. It would also provide the basis to monitor performance of the
individual sites and ensure accountability for funding decisions.

The findings in our report are consistent with observations made by the Under Secretary in his
November 1999 report, U.S. Department of Energy Stockpile Stewardship Program 30-Day
Review. The Under Secretary described a large "bow wave" of deferred improvements needed
to address "aged and marginally maintained" facilities. Based on this study, the Department, in
May 2000, initiated a comprehensive review of infrastructure challenges facing the Nuclear
Weapons Production Complex.

Our report includes descriptions of a number of specific maintenance problems that, if not
corrected in a timely fashion, could jeopardize achieving significant aspects of the Department's
Stockpile Stewardship Program.

MANAGEMENT REACTION

The Administrator, National Nuclear Security Administration, concurred with the report
conclusions and recommendations. He advised that Phase II of the Facilities and Infrastructure
Initiative study now underway would include actions responding to each of the audit
recommendations. Management’s comments are provided verbatim at Appendix 4 of the audit
report.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Under Secretary for Nuclear Security/Administrator for Nuclear Security
Management Of The Nuclear Weapons Production Infrastructure


TABLE OF
CONTENTS


                   Overview

                   Introduction And Objective ................................................................... 1

                   Conclusions And Observations ............................................................. 2


                   Weapons Production Management

                   Details Of Finding ................................................................................. 4

                   Recommendations And Comments ..................................................... 11


                   Appendices

                   1. Scope And Methodology ................................................................ 13

                   2. Memorandum from the United States Strategic Command ........... 15

                   3. Prior Audit Reports........................................................................ 16

                   4. Management Comments ................................................................ 17
Overview

INTRODUCTION AND   Since the 1940s, the Department of Energy (Department) and its
OBJECTIVE          predecessor agencies have been responsible for providing the Nation
                   with nuclear weapons and ensuring these weapons remain safe, reliable,
                   and available for the defense of the United States, should the need arise.
                   Currently, overall responsibility for the direction of the Department's
                   program is vested in the National Nuclear Security Administration
                   (NNSA).

                   After the end of the Cold War, the Department's weapons program was
                   refocused from the mass production of new types of warheads to
                   maintaining production capabilities and components for a reduced
                   nuclear weapons stockpile. The Department's program incorporates its
                   national laboratory system and industrial production facilities
                   collectively known as the Nuclear Weapons Complex. Government
                   contractors operate the Nuclear Weapons Complex. Most production
                   activities are performed at industrial facilities such as the Y-12 Plant in
                   Tennessee, the Kansas City Plant, the Pantex Plant in Texas, and the
                   Savannah River Site in South Carolina.

                   Many of the Department's production facilities were built during the
                   1940s through the 1960s. Generally, contractors operating these
                   facilities are directed by the Department to modify and remanufacture
                   existing weapons systems, perform surveillance and assurance tests,
                   build limited life components and repair parts, construct joint test
                   assemblies for surveillance, and dismantle warheads removed from the
                   active or inactive stockpile. These activities are part of the Stockpile
                   Stewardship Plan, which is a corporate level, multi-year program plan
                   that describes the strategy to ensure high confidence in the safety and
                   reliability of the nuclear weapons stockpile. The Department is to
                   regularly evaluate the reliability of nuclear weapons so that it can, on an
                   annual basis, provide the President with assurance of nuclear stockpile
                   reliability and safety. This is to be based on rigorous technical analyses
                   that lead to formal concurrence by the Directors of the three weapons
                   laboratories, the Commander-in-Chief of the U.S. Strategic Command,
                   and the Nuclear Weapons Council.

                   In 1997 and 1998, the Department issued a two-phased "Facilities and
                   Maintenance Study" that reported aging and deterioration of weapons
                   production facilities had created a $422 million maintenance and repair
                   backlog, while facility maintenance budgets had declined 25 percent
                   since 1994. In light of the concerns raised, the objective of the audit
                   was to determine whether the Department was maintaining the nuclear
                   weapons production infrastructure to meet current and future goals of
                   the Stockpile Stewardship Plan.

Page 1                                                          Introduction And Objective
CONCLUSIONS AND   Current and future goals of the Stockpile Stewardship Plan (Plan) are at
OBSERVATIONS      risk because the nuclear weapons production infrastructure has not been
                  adequately maintained. Presently, the requirements of the Plan exceed
                  current and anticipated production plant capabilities. To illustrate the
                  extent of the problem:

                  •   Since the closure of the Rocky Flats Plant, the Department has not
                      reestablished the capability to produce a certified plutonium pit.

                  •   During Fiscal Year 1999, weapons modification, dismantlement and
                      surveillance-testing activities at the Pantex Plant were delayed due
                      to infrastructure problems.

                  •   At Savannah River, a backlog of surveillance tests exists for a
                      limited-life weapons component.

                  The Department deferred substantial maintenance and upgrades on its
                  production facilities in order to meet current operational needs. In total,
                  Department of Energy and Defense officials estimated that, over the
                  next 10 years, expenditures between $5 billion and $8 billion over
                  current budgeted amounts will be needed to upgrade the production
                  facilities to meet current and future Stockpile Stewardship Plan
                  requirements.

                  The Department had not implemented a process to fully link workload,
                  production capacity, and budget data to nuclear weapons production
                  facility requirements. To alleviate this situation, we recommended that
                  the Administrator for the National Nuclear Security Administration
                  (NNSA) designate an overall science and production focal point to
                  integrate weapon systems and production activities with infrastructure
                  capabilities. Responsibilities should include updating all budgetary
                  assumptions relating to stockpile requirements and developing a long-
                  range plan to analyze and resolve weapons complex infrastructure
                  issues. Future funding requests should reflect the revised assumptions
                  and long-range plan. Further, NNSA should mandate the development
                  and implementation of a performance management system to evaluate
                  the adequacy and completeness of contractor planning efforts to
                  integrate site resources with weapons science and production
                  requirements.




Page 2                                                   Conclusions And Observations
         Due to national security implications, the matters discussed in this
         report should be considered when preparing the yearend assurance
         memorandum on internal controls.



                                       __________Signed________
                                        Office of Inspector General




Page 3                                         Conclusions And Observations
Weapons Production Management
Infrastructure     The Department has not been adequately maintaining the weapons
Readiness          complex manufacturing infrastructure to ensure that the current and
                   future goals of the Stockpile Stewardship Plan are achieved. To date,
                   the Department has been unable to reestablish the ability to build
                   plutonium pits. It has also been unable to meet current modification
                   and manufacture milestones at Pantex and Y-12 and a dismantlement
                   schedule at the Pantex Plant. At Pantex and Savannah River,
                   surveillance testing on weapon system components has been delayed.
                   In addition, facility maintenance backlogs across the complex have
                   significantly increased over the last several years. Unless
                   implementation of the Plan is substantially improved, we believe that
                   future modification, remanufacturing, and testing milestones are at risk.

                     Weapons Modification, Remanufacture, And Dismantlement Delays

                   The Los Alamos National Laboratory (LANL) has been attempting to
                   reestablish the capability to fabricate and assemble plutonium pit
                   components. Plutonium pits are needed for current surveillance testing
                   requirements and to support future stockpile requirements. The
                   Department's plan to meet such requirements was for LANL to produce
                   up to 50 pits annually. Yet, we found that even if LANL achieves this
                   goal, the Department may not be able to provide the needed capacity for
                   future stockpile pit requirements.

                   Also, the Department, in 1999, was not able to meet the initial
                   modification and remanufacture activities for the W87 weapons system
                   due, in part, to delays in scheduled infrastructure maintenance. We
                   found that half of the bays dedicated to modification and remanufacture
                   in a Pantex facility were being upgraded for fire safety, lightning, and
                   radiation protection. The upgrade construction project was first
                   submitted to the Department in Fiscal Year 1988. Work did not begin
                   until 1994 and was in progress during 1999. This was the same year the
                   W87 effort was to begin.¹ We were advised that the Fiscal Year 1999
                   modification and remanufacture schedules for the W87 would not be
                   completed until at least Fiscal Year 2002.

                   In addition, the Department planned to dismantle 328 retired weapons
                   at Pantex during Fiscal Year 1999. However, only 207 were completed
                   partly due to roof leaks – attributed to delayed repairs and preventive
                   maintenance that resulted in standing water in some Pantex operating
                   bays. The leaking roof caused a dismantlement work stoppage.
                   Completion of this effort was rescheduled.
                   _____________________________________
                   ¹NNSA officials advised that other factors also contributed to the weapons schedule delays.
                   For example, technicians needed training on the W87 modifications. Furthermore, other
                   weapons system activities converged on the Pantex facility at the same time.

Page 4                                                                                Details Of Finding
         At Y-12, the planning process for the life extension program for the
         W76 weapons system was scheduled to begin in Fiscal Year 2000.
         Despite the need for timely initiation of this program, the special
         materials facility needed to reestablish certain process capability and
         capacity had not been included in the Department’s Fiscal Year 2000
         budget request. Consequently, this program will be delayed. Although
         imprecise, the best information available to us suggests that the delay
         may be several years in duration.

          Weapons Surveillance Testing And Limited Life Component Delays

         The reliability of several weapon systems was also at risk because
         component surveillance testing has been delayed. The Department has
         used stockpile surveillance to examine existing components to detect
         potential problems that could affect weapons safety, reliability, and use
         control. In many instances, facilities utilized for surveillance testing
         were used for weapons refurbishment, maintenance, and
         dismantlement. The closure of production plants created backlogs of
         required tests, and as one NNSA official stated, "the Department's
         surveillance efforts are at the mercy of the capabilities and capacities of
         the production plants because the production plants are currently
         bandaiding their way through the required work."

         For example, at Savannah River a 3-5 year backlog of surveillance tests
         exists for tritium reservoirs, which was created when the Mound Plant
         closed. The Department has since reestablished testing capability, but
         it has been unable to eliminate the backlog.

         Several capacity issues have also arisen as a result of the need for
         more testing to accumulate data on aging weapon systems. For
         example, Pantex has needed new and additional radiography
         equipment to conduct non-destructive testing on pits and secondaries.
         Savannah River will need an additional test station to meet additional
         function tests associated with reservoir production sampling and life
         storage. The lack of testing capacity directly impacts the ability to
         certify the weapons in the stockpile.

                             Maintenance And Repair Delays

         Preventive and predictive maintenance had not been performed when
         scheduled. The Department's defense complex was comprised of aging
         facilities that required increased maintenance and upgrades which were
         delayed to future periods. At three sites – the Kansas City, Pantex, and
         Y-12 Plants – the inventory of deferred maintenance actions increased

Page 5                                                         Details Of Finding
                          almost 25 percent in just one year, from $304 million in Fiscal Year
                          1998 to $379 million in Fiscal Year 1999. The increase in deferred
                          maintenance illustrates the significance of the problems disclosed
                          during the audit.

                          We also found that at least one site, Y-12, provided inaccurate data on
                          deferred maintenance for Fiscal Year 1999. An analysis of Y-12 Plant
                          deferred maintenance data indicated that at least 87 buildings and 240
                          other structures and facilities were excluded from the Fiscal Year 1999
                          estimate. At least eight other buildings (including three major
                          production facilities currently in use) were estimated to have zero
                          deferred maintenance because they were expected to be surplused in
                          about seven years, though maintenance would be required during that
                          time period. As a result, the Department had little confidence that
                          certain deferred maintenance data provided a sound basis for budgeting
                          purposes or that it placed the Department in a position to determine the
                          impact of deferred maintenance on stockpile reliability.


Weapons Complex           The Department was required to maintain the weapons complex
Requirements              infrastructure at a level that ensures compliance with mission
                          requirements that were developed with the Department of Defense and
                          the Nuclear Weapons Council. Specific requirements governing this
                          process are contained in:

                          •   The Stockpile Stewardship Plan and a number of related classified
                              documents.

                          •   Department Orders 4330.4B-Chapter II and 430.1A and Federal
                              Financial Accounting Standards. The Orders require use of the
                              condition assessment survey to identify maintenance needs.

                          •   The Department's "Defense Programs Facilities and Infrastructure
                              Management Policy" requires annual preparation of individual site
                              plans spanning a 10-year period.


Need For Overall          The Department did not have an overall implementation approach to
Implementation Approach   manage its nuclear weapons production infrastructure and operated
                          under funding constraints. Specifically, it did not have sufficient or
                          accurate information to link weapons workload and production
                          capability with facility requirements. Furthermore, no one individual
                          was assigned the responsibility to integrate weapon systems activities
                          with infrastructure capabilities or the authority to ensure necessary
                          actions were taken.
Page 6                                                                           Details Of Finding
                           Unchanged Budgeting Assumptions

         Budget constraints have required Department contractors to work
         within fixed funding levels when workload and other unfunded
         mandates have increased operating costs. During the 1992-1993
         preparation of the Final Programmatic Environmental Impact Statement
         for Stockpile Stewardship (PEIS) and related budgets, a determination
         was made that all aspects of the Stockpile Stewardship Program could
         be conducted over a 10-year period at a cost of $45 billion. The
         Department established this funding level under the assumption that it
         would support a future U.S. stockpile of 3,500 weapons. This level
         was based on the proposed Strategic Arms Reduction Talks (START
         II). However, in Fiscal Year 1997 and subsequent years the Production
         and Planning Directives from the President and the Nuclear Weapons
         Council established a much higher workload based on a START I
         stockpile of 6,000 weapons, which became the planning benchmark.
         Consequently, the Department has supported a 6,000 weapon stockpile
         even though facility operating costs, since 1997, were budgeted for
         supporting 3,500 weapons.

         There also have been several unfunded mandates not included in the
         PEIS that have been imposed on the production plant sites. These
         included increased requirements in the areas of safeguards and security;
         environment, safety and health; and waste management. Furthermore,
         an assumption was made that the Environmental Management program
         would undertake stewardship landlord responsibilities for excess
         facilities and that the weapons program would not bear the costs of
         caring for such facilities. Subsequently, the Department allowed
         Environmental Management to postpone accepting responsibility for
         excess facilities until some undetermined year after 2000. Therefore,
         the associated maintenance costs had to be absorbed in each plant's
         operating budget. Over the last several years, funding for production
         plant operations, excluding construction costs, has remained virtually
         constant at about $1.9 billion annually.

                     Departmental Implementation And Focal Point

         The Department and its production sites were not able to fully address
         the budgetary constraints because they did not have accurate
         information to link overall workload production capacity and budget
         information with facility requirements. Such linkages are important if
         the Department is to achieve its intended mission outcomes and are
         envisioned by the Government Performance and Results Act (GPRA).
         Under the GPRA concept, accurate and continually updated long-range

Page 7                                                       Details Of Finding
         plans – fully integrated with annual budget requests – are critical
         components of results-oriented and defensible programmatic activities.
         Although there was a requirement for workload and budgetary
         information to be included in the Ten-Year Site Plan for each
         production site in the weapons complex, only two sites had completed
         these plans. Furthermore, no one individual was assigned
         responsibility for integrating the 10-year site information for a
         Departmentwide overview of this key information.

         Pantex and Savannah River were the only production sites to
         consistently comply with the Department's Ten-Year Site Plan
         requirements for identifying, reporting, tracking, and developing a plan
         that related directed stockpile workload to current and future facility
         and funding needs. Also, Pantex was the only one to have performance
         objectives in its award fee structure to maintain a 10-year site planning
         process. Inconsistent implementation of plan requirements at the other
         four sites has hindered the Department's ability to link workload and
         budget information with facility requirements.

         Individual sites reported and forecasted maintenance costs in their Ten-
         Year Site Plans that was inconsistent with data entered in the
         Department's Facilities Information Management System (FIMS). A
         prior report on Facilities Information Management System (DOE/IG-
         0468) concluded that the FIMS did not contain accurate and complete
         information. Also, the sites did not always assess the condition of the
         production plants as required. Finally, the Department had not
         developed contract performance measures to ensure a viable 10-year
         site planning process.

         The Y-12 Ten-Year Site Plan for 1999 illustrated the importance of
         complete information being provided to Headquarters. In that plan, 13
         major production facilities were mentioned; however, the plan did not
         indicate the condition of the facilities or whether current workload
         requirements could be met. One circumstance that contributed to this
         situation was that the Y-12 contractors had not performed a condition
         assessment survey or collected required maintenance data for any
         facilities for the past several years. Condition assessment surveys are a
         preliminary step toward preparing a Ten-Year Site Plan and focus on
         identifying current, as well as past, maintenance amounts needed for
         projecting future funding requirements for site facilities. In addition,
         the Y-12 Plan did not include a Headquarters initiative to identify the
         costs associated with modernizing the plant to meet future capacity
         needs. Y-12 preliminarily estimated that capital costs alone would
         range from $2.9 billion to about $4 billion for at least six facilities and
         utility upgrades.
Page 8                                                         Details Of Finding
                       Department officials advised us that several of the production sites did
                       not consider the development of Ten-Year Site Plans worthwhile
                       because management's attention was only on current year not future
                       year activities. Officials also asserted that no single individual at
                       Headquarters had been designated this responsibility. The Deputy
                       Assistant Secretary for Military Application and Stockpile Operations
                       further indicated that the "Ten-Year Plans were not being used since the
                       Department did not have long-term budgets." In implementing
                       legislation, NNSA was required to plan, budget, and program activities
                       through a 5-year budget planning cycle.

                       The Office of Inspector General has previously reported on the
                       importance of long-range planning and the consequences of failing to
                       adjust for changes in planning assumptions. In our January 2000 report
                       on The Management of Tank Waste Remediation at the Hanford Site
                       (DOE/IG-0456), we noted that because of a short-term management
                       focus, the Department had failed to adjust planning documents that
                       contained unrealistic milestones for the Tank Waste project. In our
                       view, consequences for that project included increased cost estimates
                       and potential damage to the Department's credibility.

                       Although we were assured that the Department has met current military
                       requirements, its ability to meet other stockpile requirements is at risk.
                       Discussions with responsible NNSA and contractor officials supported
                       this concern.

Future Production at   One illustration of this problem was the failure of the Department to
Risk                   request or properly fund a special materials facility at Y-12 needed for
                       the W76 and other weapon systems. While we recognize that
                       significant policy judgments were involved here, we noted that
                       planning for this facility was to begin the first quarter of Fiscal Year
                       2000. Yet, as of June 1, 2000, the Department had not requested line
                       item funding for the facility. Under the current budget process,
                       approximately 7 years may be needed to obtain line item funding for
                       projects of this type. Consequently, established milestones for the W76
                       may need to be rescheduled. Departmental officials have since advised
                       that funding for the Special Materials Facility is in the Fiscal Year 2001
                       budget as a Preliminary Project Design and Engineering Project.

                       At LANL, the Department has not produced a war reserve (certified)
                       pit. In addition to funding for meeting current production needs, the
                       Department may need to expend an additional $2 billion for a facility to
                       meet future pit replacement requirements. Department officials


Page 9                                                                      Details Of Finding
          cautioned that the need for such a facility and future pit requirements
          were still being evaluated.

          Deferring maintenance in the nuclear weapons production
          infrastructure has also impacted long-term safety and health concerns
          and replacement costs. For example, Y-12 used $8.5 million of plant
          improvement funding to cover unplanned costs related to current
          operational workload requirements. Y-12 had planned to invest $5
          million of the $8.5 million in a new changehouse to ensure the health
          and safety of production workers. Y-12, however, has since decided to
          spend $1.1 million to improve an existing changehouse. The contractor
          had previously determined that the cost to repair and replace the failed
          systems in this changehouse would result in long-term cost
          inefficiencies for the Government. By choosing to meet short-term
          production goals over long-term improvements, Y-12 cannot ensure a
          suitable workplace for its production workers in the future and the
          estimated cost of replacement has increased to $5.6 million.

          Finally, the cost of deferring preventive and predictive maintenance
          may increase the Department's overall maintenance costs. For
          example, deferral of maintenance and the lack of similar funding in the
          1970s led to the necessity of a $2.2 billion facilities and equipment
          restoration program in the early 1980s.

          In discussions with NNSA officials on the apparent shortfall of
          infrastructure funding, we were advised that an additional $5 billion
          investment, over and above the current budget estimate, would be
          needed to ensure a safe, reliable, and secure stockpile over the next 10
          years. Further, we found that the Program Analysis and Evaluation
          Group at the Department of Defense (DOD) concluded that there were
          serious maintenance problems at some nuclear weapons production
          facilities. A joint study by the Department and the DOD group
          indicated that needed improvements to the production plant
          infrastructure may cost as much as $8.2 billion over 18 years.
          Furthermore, after a review of the Department's FY 2001 Stockpile
          Stewardship Plan, the Commander-in-Chief of the U.S. Strategic
          Command indicated to the Department that the Command was,
          "concerned that the nuclear weapons complex infrastructure receives
          inadequate attention and is not positioned to support the future DSW
          [Directed Stockpile Work] needs of the stockpile."²


          _____________________________________
          ²The Commander-in-Chief's letter is included as Appendix 2.

Page 10                                                                 Details Of Finding
                  It should be noted that the Office of Inspector General takes no position
                  as to the appropriate funding levels for the Stockpile Stewardship
                  Program and how much in additional resources will be necessary to
                  modernize the weapons complex. The thrust of this report is that
                  implementation of condition assessments, development of ten-year
                  plans, and processes to integrate the plans with the new 5-year budget
                  are needed to facilitate the development of an accurate funding estimate
                  for the program. Without such a base, the level of confidence in the
                  Department's ability to certify the nuclear weapons stockpile could
                  decrease.


RECOMMENDATIONS   To ensure that the nuclear weapons complex infrastructure can meet the
                  current and future goals of the Stockpile Stewardship Plan, we
                  recommend that the Administrator for the National Nuclear Security
                  Administration establish an overall science and production focal point
                  with authority to:

                  1. Update all budget-planning assumptions related to the Department's
                     PEIS with the Stockpile Stewardship Management Plan.

                  2. Develop a condition assessment survey methodology and ensure it
                     is conducted at all production plants including the production
                     portions of the national laboratories.

                  3. Require that all production plants and laboratories with production
                     facilities prepare a Ten-Year Site Plan in accordance with
                     established Departmental policy to ensure that infrastructure needs
                     are identified and are consistent with current and planned directed
                     stockpile workload requirements. Each plan should be evaluated
                     for adequacy and completeness and then individual site resource
                     and facility requirements integrated into an overall production plant
                     Ten-Year Site Plan.

                  4. Work with applicable contracting officers to (a) establish consistent
                     performance measures for infrastructure maintenance, reporting, and
                     Ten-Year Site Plan development; (b) evaluate the performance of
                     contractors relative to the established performance measures; and (c)
                     determine the appropriate award and incentive fees earned by the
                     applicable contractors.

                  5. Develop a 5-year budget planning cycle that will integrate the
                     overall Ten-Year Site Plan requirements with production plant



Page 11                                                               Recommendations
                                                                        And Comments
                infrastructure needs and submit a budget request to the Congress
                that reflects these needs.

             6. Develop a contingency plan that prioritizes infrastructure activities
                so that defensible choices can be made if requested funding is not
                received.


MANAGEMENT   The Administrator, NNSA, concurred with the report conclusions and
REACTION     recommendations. He advised that Phase II of the Facilities and
             Infrastructure Initiative study now underway would include actions
             responding to each of the audit recommendations. Management’s
             comments are included in their entirety as Appendix 4.

AUDITOR      Management comments were responsive to our recommendations.
COMMENTS




Page 12                                                          Recommendations
                                                                   And Comments
Appendix 1

SCOPE         The audit was performed from July 1999 to June 2000 at Department
              Headquarters in Washington, DC and Germantown, Maryland. Site visits
              were made to the Albuquerque Operations Office and Sandia National
              Laboratories in Albuquerque, New Mexico; the Amarillo Area Office and
              the Pantex Plant in Amarillo, Texas; the Los Alamos National Laboratory
              in Los Alamos, New Mexico; and the Y-12 Plant in Oak Ridge, Tennessee.
              In addition, the Albuquerque Operations Office provided Ten-Year Site
              Plans for the Kansas City Plant and the Savannah River Site.


METHODOLOGY   To accomplish the audit objective we:

              •   Evaluated the Stockpile Stewardship Plan for Fiscal Years 1999 and
                  2000 and Defense Programs policy and implementing guidance
                  relating to facilities and infrastructure management.

              •   Obtained and reviewed applicable Federal Financial Accounting
                  Standards and Departmental reporting requirements for property, plant,
                  and equipment as well as Departmental orders pertaining to life-cycle
                  asset management and maintenance.

              •   Reviewed and discussed the classified Fiscal Year 1999 Production
                  and Planning Directive and the related classified Program Control
                  Documents for the W87 and W76 systems with Headquarters and
                  Albuquerque Operations Office officials.

              •   Held discussions regarding the Stockpile Stewardship Plan, the
                  Stockpile Life Extension Program and related requirements, the
                  Stockpile Surveillance Program, the nuclear weapons complex
                  manufacturing infrastructure, Ten-Year Site Plans, and Defense
                  Programs budgets with Headquarters and Albuquerque officials.

              •   Held a discussion with Department of Defense Program Analysis and
                  Evaluation Group officials regarding their study of the Department's
                  manufacturing infrastructure.

              We also obtained and reviewed maintenance programs, performance plans
              and measures, Ten-Year Site Plans, and held discussions with responsible
              contractor officials. The Work Authorization Directives for Fiscal Years
              1998 and 1999 were reviewed to identify contractor workload
              requirements. In addition, we reviewed contractor data on maintenance
              and deferred maintenance and compared these amounts with those entered
              in the Facilities Information Management System.


Page 13                                                      Scope And Methodology
          We conducted the audit according to Generally Accepted Government
          Auditing Standards for performance audits and included tests of internal
          controls and compliance with laws and regulations to the extent
          necessary to satisfy the audit objective. Accordingly, we assessed
          internal controls and performance with regard to meeting production
          and planning schedules, implementation of life-cycle asset management
          programs, and the preparation of Ten-Year Site Plans. Because our
          review was limited, it would not necessarily have disclosed all internal
          control deficiencies that may have existed at the time of our audit. We
          did not rely on computer-processed data to accomplish the audit
          objective. Therefore, we did not assess the data reliability.

          During the course of the audit, the Department's budgeting approach
          was revised to present budget data under three categories: Directed
          Stockpile Work, Campaigns, and Readiness in Technical Base and
          Facilities. We did not review this revised budgeting structure in the
          current audit.

          Management waived an exit conference.




Page 14                                                Scope And Methodology
Appendix 2




Page 15      Memorandum from the United
               States Strategic Command
Appendix 3

       PRIOR OFFICE OF INSPECTOR GENERAL REPORTS RELATING TO WEAPONS
                          PRODUCTION INFRASTRUCTURE



ER-B-99-07 – May 1999 – "Audit Report on Maintenance Activities at the Y-12 Plant". Lockheed Martin
did not adequately use performance measures to identify and correct inefficiencies in its maintenance
program. This condition occurred because Lockheed Martin did not fully implement Departmental
guidelines. The report concluded that with increased labor efficiency, the additional maintenance activity
could be used to reduce the $11.2 million backlog for plant maintenance.

DOE/IG-0468 – April 2000 – "Report on Facilities Information Management System". The Facilities
Information Management System was inaccurate and incomplete because many field sites maintained their
own site-specific real property systems and did not use the FIMS to manage property. In addition, a
Headquarters organization with oversight responsibility for FIMS did not have the authority to require field
sites to maintain and use the database. As a result, the ability of Departmental management, the Congress,
and other Federal agencies to use FIMS data to make informed decisions pertaining to real property
holdings was questionable.




Page 16                                                                                Prior Audit Reports
Appendix 4




Page 17      Management Comments
Page 18   Management Comments
                                                                           IG Report No. DOE/IG-0484

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
